HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Center's Award Process for a Contract With Cardinal
Health, Inc.," (A-03-06-00525)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Center's
Award Process for a Contract With Cardinal Health, Inc.," (A-03-06-00525)
May 21, 2007
Complete Text of Report is available in PDF format (89 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Program Support Center (PSC) awarded a fixed-price contract to Cardinal Health, Inc. (Cardinal) to provide pharmaceutical supplies for use at Federal medical shelters, which were set up to provide emergency medical care for those in the affected areas.
The objective of our audit was to determine whether PSC complied with Federal Acquisition Regulation (FAR) and Health and Human Services Acquisition Regulation (HHSAR) requirements during the award process with Cardinal. PSC complied with FAR and HHSAR requirements during the process. PSC awarded this contract under a waiver granted by the HHS Office of Acquisition Management and Policy that allowed HHS agencies to temporarily limit full and open competition in order to procure urgently needed items and services. According to procurement records, PSC determined that an unusual and compelling urgency existed sufficient to solicit from a single source, Cardinal. Furthermore, the procurement records contained all documentation required by the waiver.